   Office of Inspector General
        Audit Report



ACTIONS NEEDED TO IMPROVE FTA’S OVERSIGHT
    OF THE DULLES CORRIDOR METRORAIL
            PROJECT’S PHASE 1
          Federal Transit Administration

           Report Number: MH-2012-155
            Date Issued: July 26, 2012
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Needed To Improve FTA’s                   Date:    July 26, 2012
           Oversight of the Dulles Corridor Metrorail
           Project’s Phase 1
           Federal Transit Administration
           Report No. MH-2012-155

  From:                                                           Reply to
           Joseph W. Comé                                         Attn. of:   JA-40
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Transit Administrator

           The Dulles Corridor Metrorail Project (the Dulles project) is one of the most
           prominent transportation projects in the national capital region, with the ultimate
           goal of providing a mass transit link to Dulles International Airport in Northern
           Virginia. The Metropolitan Washington Airports Authority (MWAA) is
           constructing the first of two phases of the project, although MWAA will turn over
           operation of both phases to the Washington Metropolitan Area Transit Authority
           (WMATA) as they are completed. The Federal Transit Administration (FTA) is
           responsible for overseeing the Federal Government’s significant investment in
           phase 1 of the Dulles project—a $900 million grant from FTA’s New Starts
           program including $77.3 million from American Recovery and Reinvestment Act
           (ARRA) funds. Phase 1 has a total estimated cost of $3.1 billion.

           The project has been the subject of significant public and congressional scrutiny,
           including safety issues that emerged 3 years ago. In October 2009, our office
           issued a management advisory to FTA (see exhibit D) expressing concern about
           the safety of using 11 pier foundations to support part of the Dulles project’s
           guideway (see figure 1 on the next page). These foundations are composed of
           30-year-old steel piles topped with a concrete cap. We requested that FTA work
           with MWAA to develop a plan for ensuring the foundations would undergo
           sufficient safety testing. FTA assured us it would require MWAA to develop a
           comprehensive testing plan. The FTA Administrator also committed FTA to
           providing enhanced oversight, stating that MWAA would incorporate the results
           of the safety tests into the Dulles project’s final design.
                                                                                                                2


Figure 1. Location of Existing Pier Foundations on the Dulles
Project




Source: OIG with photograph insert from The Washington Post

In our advisory, we also announced our plan to evaluate the effectiveness of
FTA’s oversight of phase 1 and assess potential safety concerns. Specifically, our
objectives were to determine whether (1) FTA’s oversight of MWAA’s process to
test the 30-year-old foundations was sufficient to resolve safety concerns and
(2) FTA’s oversight activities effectively addressed significant project schedule,
cost, and funding risks.

In conducting the audit, we interviewed officials at FTA and its oversight
consultant, Hill International. We also spoke with officials at MWAA and its
design-build contractor, Dulles Transit Partners (DTP); WMATA; and the
Virginia Department of General Services. In consultation with our engineers, we
assessed key documents, including results of the foundation tests and project
management oversight contractor (PMOC) 1 assessments of the testing process. We
stayed abreast of project developments by reviewing monthly project reports and

1
    FTA uses PMOCs to oversee projects, in accordance with FTA guidance, and report regularly on needed corrective
    actions. PMOCs evaluate a grantee’s cost estimates and technical and management capacity, and later monitor
    implementation.
                                                                                  3


through periodic inquiries to FTA, MWAA, and WMATA. In June 2011, we
contracted with the Army Corps of Engineers to enhance our review of stray
current tests and service life. We conducted this audit in accordance with generally
accepted Government auditing standards for performance audits. We provided
FTA with our draft report for review and comment on February 15, 2012. We
received its technical comments on June 5, 2012, and its formal response on
June 7, 2012. We periodically met with FTA officials during the 4-month period
between the issuance of our draft report and the date we received FTA’s formal
response. We also updated our report to reflect additional information provided
and actions taken by the parties involved during that period. Exhibit A describes
our scope and methodology and related work; exhibit B identifies the
organizations we visited or contacted; exhibit C details compliance with ARRA
obligation, oversight, and reporting requirements; and exhibit E provides FTA’s
response to our management advisory and FTA’s related letter to MWAA.

BACKGROUND
The Dulles project will add a new line—the “silver line”—to the WMATA
Metrorail system, as shown in figure 2 on the next page. Phase 1 of the new
construction will run from near the existing West Falls Church Station through the
Tysons Corner area to Wiehle Avenue in Reston, Virginia. Phase 1 will be largely
above ground with a short tunnel under the Route 7 and Route 123 interchange.
The planned phase 2, not yet under construction, would continue Metrorail service
into Loudoun County, Virginia, passing through Dulles International Airport.
When completed, the silver line will originate at the Stadium Armory Station and
will share existing track with the blue and orange lines. The silver line will
continue to share existing track with the orange line up to the East Falls Church
Station.
                                                                        4


       Figure 2. Dulles Project’s “Silver Line” Extension of the Metrorail
       System, Phases 1 and 2




Silver Line




       Source: WMATA
                                                                                                                    5


MWAA is responsible for design and construction of both phases and is the FTA
grantee for phase 1 and, therefore, subject to FTA oversight for phase 1 of the
Dulles project. 2 Once MWAA completes each phase, WMATA will operate the
rail line. At present, WMATA has a consulting role in the Dulles project under an
interagency agreement. WMATA also has a direct role in project execution on a
reimbursable basis from MWAA, mainly for the acquisition of railcars. Table 1
shows the organizations involved in the oversight and construction of the Dulles
project.

Table 1. Organizations With Roles in the Dulles Project
    FTA                        The Federal agency responsible for determining whether New Starts projects,
                               such as the Dulles project, are eligible for Federal funding and, later,
                               overseeing the construction of projects.
    MWAA                       Separately from its airport responsibilities, the grantee responsible for
                               execution of the project. In order to finance the major portion of both phases,
                               MWAA has also taken over the operating responsibilities and the revenues of
                               the Dulles Toll Road. MWAA also provided a quality assurance review of the
                               pier foundation testing performed by DTP.
    DTP                        MWAA’s design-build contractor for the project. DTP subcontractors
                               performed the tests of the historic pier foundations.
    WMATA                      As the eventual owner and operator of the project, WMATA serves as a
                               technical advisor to MWAA, with a particular focus on compliance with
                               WMATA design standards and criteria. WMATA is also acquiring the railcars
                               for the project, and MWAA reimburses WMATA using project funds.
    Hill International         FTA’s PMOC for the Dulles Project.
    Fairfax County,            The county where the phase 1 project is located and a significant source of
    Virginia                   project funding through taxes on businesses within a special tax district.
    CTI                        MWAA’s consultant to oversee DTP’s testing of the historic foundations.
    Commonwealth of            Source of about $177 million of project funding. Depending on the exact
    Virginia                   location, the Commonwealth Department of General Services or Department
                               of Transportation is responsible for providing permits for some portions of the
                               construction.
Source: OIG based on the Dulles Corridor Metrorail Project Extension to Wiehle Avenue Project
Management Plan

FTA oversees major projects using its staff and PMOCs to ensure the adequacy of
a grantee’s technical capability; assess the reasonableness of a project’s scope,
schedule, and estimated cost; and assess cost and schedule estimates. PMOCs
identify problems, suggest solutions, perform analyses, and report their findings
and recommendations to FTA.



2
    Although some phase 2 issues might affect phase 1, and FTA has no official oversight role in phase 2 at this time,
    the Secretary and FTA Administrator have facilitated the process by encouraging the parties involved in phase 2 to
    reach consensus on certain issues vital to sustain the project.
                                                                                                                      6


RESULTS IN BRIEF
In response to our management advisory, FTA implemented an oversight process
for ensuring that MWAA tested the 30-year-old pier foundations, but as of
February 2012, when we issued our draft report, it had yet to take sufficient
follow-up actions to resolve all the issues that emerged from the test results. To
carry out its oversight process, FTA engaged a PMOC to verify that MWAA’s
design-build contractor (DTP) conducted the tests and used an independent third
party (CTI) to oversee them. While FTA concurred with the PMOC’s November
2010 3 determination that “the existing piers are suitable for re-use,” our review of
the testing reports identified areas where FTA’s initial review and MWAA’s
quality assurance review overlooked omissions in the testing and errors in the test
results. These included the need to further analyze foundational steel piles that
varied from industry standards 4 and inconsistencies among the three reports
(MWAA’s, DTP’s, and CTI’s) for the same piles. MWAA and DTP took actions
to resolve these and other deficiencies we brought to their attention in 2011.
However, our review of testing documents since then found that FTA still had not
resolved two key issues.

    • First, although the 2010 testing results appeared to demonstrate that the
      foundations could support vertical loads of the infrastructure constructed upon
      them, FTA did not fully address issues we identified with the foundations’
      ability to withstand lateral loads (horizontal forces that push from the side) 5
      until June 2012. At that time, an FTA PMOC reported that the lateral load
      capacity of the foundations is adequate, citing technical references to support
      the assumption that the untested load capacity of battered piles is equivalent to
      the capacity of nearby tested vertical piles that underlie the foundations. Figure
      3 describes key engineering terms. The PMOC’s overall approach was
      supported by other experts in the Department of Transportation and by other
      FTA consultants, although the consultants did not comment on the PMOC’s
      specific assumption about untested battered piles. Ultimately, the additional
      information FTA provided is responsive to our concerns about the foundations’
      capacity to withstand lateral loads, but the extended process in reaching this
      point supports the need for FTA’s plans to assess elements of its oversight
      processes.
    • Second, the testing process has not yet provided assurance that the structures
      being turned over to WMATA will at least meet the 50-year service life
3
    The reports reviewed consisted of a DTP report, the independent third party’s report, and MWAA’s summary quality
    assurance report.
4
    ASTM International, formerly the American Society for Testing and Materials, set industry standards that are used
    on the Dulles project.
5
    Lateral load is a horizontal force transferred to a pile that pushes from the side and that comes, for example, from
    wind; movement of rail cars; and seismic forces, such as the one experienced in the Washington Metropolitan Area
    on August 23, 2011.
                                                                                                                    7


      specified in FTA guidance. Stray electrical current along the piles was not
      sufficiently tested to determine the effects of corrosion on the foundations’
      service life. Stray current is picked up by the piles closest to the rail tracks, and
      over time, these piles lose steel due to corrosion. With assistance from the
      Army Corps of Engineers, we found that the testing depth, measurements, and
      criteria used were insufficient to validate FTA’s and MWAA’s conclusion that
      negligible corrosion from stray currents is occurring on the steel piles. In
      June 2012, FTA agreed to direct MWAA to conduct additional corrosion
      testing to provide further assurance that the expected 50-year service life will
      be met before turning the structure over to WMATA.

Figure 3. Description of Key Engineering Terms
                                         Pier               A vertical structure that supports the elevated
                                                            guideway.
                                         Foundation         The portion of a structure, usually below ground,
                                                            used to transfer the loads from the pier to the
                                                            underlying earth or bedrock.
                                         Pile               A vertical pile is a long steel component of the
                                                            foundation that is driven deep into the ground to
                                                            give support to the structure above it. A battered pile
      Pier                                                  is an inclined pile that is driven into the ground at an
                                                            angle.
                                         Pile Cap           Part of the foundation, a large concrete block that
                                                            sits on top of the piles from which a pier is extended
                                                            to support the elevated guideway.
      Pile Cap
                                         Axial or           A vertical force transferred to a pile that pushes
                                         Vertical Load      down from the top and that, for example, comes
                                                            from the weight of the structure and railcars.
                                         Lateral Load       A horizontal force transferred to a pile that pushes
                                                            from the side and that comes, for example, from
                                                            wind and movement of the railcars.
      Piles
                                         Stray              The flow of electricity from the powered rail of a
                                         Current            transit system that can flow through the ground, be
                                                            picked up by buried metal elements, and cause
                                                            corrosion.

Source: OIG with Illustration from The Washington Post

As of February 2012 when we issued our draft report, FTA had not taken
sufficient mitigation actions to address key project issues, such as receiving
delivery of new railcars and funding a reserve account, that put the schedule, cost
estimate, and funding from the 2009 Full Funding Grant Agreement (FFGA) 6 at
risk. FTA still faces the significant challenge of following through to carry out
actions it has promised in response to our draft report. Specifically:
6
    The FFGA is an instrument that defines the scope of a Project, the Federal contribution to that Project, and other
    terms and conditions.
                                                                                                                     8


    • FTA had not effectively addressed schedule risks, including late delivery of the
      64 railcars needed to make the Dulles project operational for Metrorail users.
      WMATA officials stated that it can make up a shortfall by using cars from its
      existing fleet. However, as of June 2012, FTA had not yet accepted
      WMATA’s updated Rail Fleet Management Plan, which could determine
      whether that plan is feasible. Another risk that could still impact the scheduled
      completion date is disagreements between DTP and MWAA over whether the
      expansion of the West Falls Church Yard should be included in the Dulles
      project’s critical path. 7 At the time of our draft report, MWAA had a
      longstanding disagreement with DTP’s estimated completion date because it
      did not include the West Falls Church Yard expansion in its schedule
      estimates. After we issued our draft report, FTA worked with MWAA and
      DTP to resolve the scheduling issue on the West Falls Church Yard. Although
      MWAA and DTP reached agreement on the schedule issue, this risk could
      reemerge unless FTA closely monitors implementation of the agreement as
      construction progresses.
    • FTA had not taken sufficient actions to mitigate the cost risks of the Dulles
      project. In March 2011, the PMOC began expressing concerns about the
      adequacy of the project contingency and projected budget overruns. In
      July 2011, the PMOC reported that the estimated budget overruns of
      $115 million 8 would exceed the remaining contingency of $87 million, leaving
      a $28 million deficit and by September 2011, the remaining contingency had
      declined to $82.3 million. However, at the time of our draft report in February
      2012, FTA had not yet accepted a key plan addressing these risks. Given the
      forecasted magnitude of the budget overruns, the Dulles project could exceed
      the cost estimate contained in the FFGA, unless MWAA or DTP is able to
      identify significant cost savings or secures additional funding, including the
      potential need to fund a $200 million Capital Reserve Account (CAPRA) 9 that
      was called for in the FFGA. To date, FTA has not required MWAA to fully
      fund the CAPRA. Subsequent to our draft report, FTA approved MWAA’s
      Risk and Contingency Management Plan, which addresses cost overruns and
      could negate the need for the CAPRA—if FTA ensures that MWAA carefully
      follows the plan for the duration of project construction.
We are making a series of recommendations to strengthen FTA’s oversight of the
Dulles project.


7
    A critical path is a sequence of activities that must be completed on schedule to ensure that the entire project is
    completed on schedule. For example, if an activity on the critical path is delayed by 1 day, then the entire project
    could be delayed by 1 day.
8
    Estimated overruns include $59 million in allowance items yet to be awarded and nearly $56 million in open
    Directive Letters.
9
    The CAPRA is committed solely to the Project to serve as additional contingency beyond the Project’s contingency,
    should MWAA fail to maintain its current baseline cost estimate.
                                                                                                                                      9


FTA HAD NOT RESOLVED IMPORTANT ISSUES RAISED BY THE
TEST RESULTS
MWAA’s design-build contractor tested the 30-year-old pier foundations using a
process consistent with steps established by FTA, in response to our management
advisory. However, as of February 2012, FTA’s oversight of the testing process
and its subsequent actions had not resolved all issues that emerged from the tests
or issues our review identified, which we discussed with FTA in March 2011 (see
figure 4 for a timeline of the testing process). In particular, at the time of our
February 2012 draft report to FTA, MWAA and DTP had not yet resolved two key
issues: (1) the structures’ ability to withstand lateral loads and (2) the potential
corrosion of the piles and possible reduction of their service life due to the effect
of stray current. In its June 2012 response to our draft report, FTA reported that it
had taken action to resolve these issues by endorsing a PMOC’s report attesting to
the adequacy of the foundations’ lateral load capacity and directing MWAA to
conduct additional corrosion testing on the effect of stray current. FTA also stated
that it plans to conduct an internal review of its PMOC process given the issues we
identified in this report.

 Figure 4. Roles and Timeline of the Testing and Testing Oversight of
 the Pier Foundations in Response to OIG Management Advisory

       2009        2010                       2011                                                2012
       Oct         Jan       Oct              Mar              Jun              Jul               Feb           Jun




     OIG
     issues     FTA         DTP, CTI, &    OIG discusses    WMATA
                                                                                PMOC issues       OIG      PMOC issues report on
     Mgmt       responds to MWAA           preliminary      notifies MWAA
                                                                                positive report   issues   lateral loads. FTA
     Advisory   Advisory    provide test   audit findings   it is satisfied
                                                                                on testing        draft    responds to OIG report &
                            reports        with FTA         with test results                     report   provides supplemental
                                                            and accepts         process
                            to FTA                                                                         information
                                                            piers




FTA Had Not Resolved Safety Issues Related to the Pier Foundations’
Ability To Withstand Lateral Loads
FTA had not ensured at the time of our draft report that the pier tests and
subsequent follow-up activities clearly determined the foundations’ ability to resist
lateral loads (horizontal forces that push from the side). 10 In March 2011, we told
FTA officials that the Dulles project design documents lacked sufficient
information on the capacity of the existing piles to adequately support lateral loads

10
     Vertical piles were tested and the testing results appeared to demonstrate the foundations’ ability to support
     adequately the infrastructure constructed upon them.
                                                                                                                 10


as required by design codes. 11 In May 2011, a month after we told MWAA about
our concerns with the lateral loads, MWAA issued a revised report that included a
new DTP analysis of pile lateral load capacity for the foundations. In this report,
the analysis appeared to have been based on results from battered pile tests.
However, when we later requested testing documentation through FTA, MWAA
provided a revised analysis that had removed references to testing the existing
battered piles. The revised analysis was based on results from select vertical pile
tests. It still did not sufficiently demonstrate how the load capacity of each of the
untested existing battered piles could be determined.

As a result of our continued inquiries into this matter, DTP revised its analysis and
the PMOC issued a report detailing the basis for determining the capacity of the
pier foundations to withstand lateral loads. In its June 2012 report, the PMOC
concluded that lateral load capacity could be determined by analyzing untested
battered piles, assuming that their load capacity is equal to the tested capacity of
vertical piles in the vicinity of the battered piles. The PMOC supported this
assumption citing technical references such as the uniformity of the soil in the
foundation area, standard practices for driving piles, and application of an
American Society for Testing and Materials (ASTM) 12 standard that was used for
5 of the 11 pile foundations. The PMOC’s overall approach was supported by
experts in the Department of Transportation’s Federal Highway Administration,
and other FTA consultants. However, these experts did not comment on the
PMOC’s specific assumption about the untested battered piles or how the cited
references supported that assumption.

In its June 2012 response to our draft report, FTA cited work done by technical
experts, including the PMOC, attesting that the lateral load capacity of the
foundations is adequate. The additional information FTA provided is responsive to
our concerns about the foundations’ capacity to withstand lateral loads, but the
extended length of time it took to reach this point supports the need for FTA’s
plans to assess elements of its oversight processes. In responding to our draft
report, FTA stated that it intends to review its existing processes and requirements
for project management oversight to ensure that it is as effective as possible.
Given that information we received from FTA, MWAA, and DTP during this audit
on the lateral load issue was, on multiple occasions, inaccurate, incomplete or
inconsistent with other documents provided, we agree that FTA could benefit from
a comprehensive review. The importance of early proactive identification of safety
issues is illustrated by the concern we raised about the foundations’ capacity to
withstand lateral loads. The analysis FTA provided with its June 2012 response
11
     The design codes are listed in the Basis of Design Report, Design Criteria and Standards for the Dulles Corridor
     Metrorail Project.
12
     ASTM is a globally recognized leader in the development and delivery of international voluntary consensus
     standards. There are about 12,000 ASTM standards that are used around the world to improve product quality,
     enhance safety, facilitate market access and trade, and build consumer confidence.
                                                                                                                               11


relies on a number of assumptions on foundations due to the lack of historical
data, such as pile driving records and as-built drawings, and the degree of prior
testing performed. Moreover, had FTA addressed lateral load capacity testing
earlier, the almost completed construction atop the foundations would not have
constrained actual tests of the battered piles.

FTA Has Not Resolved the Effect of Stray Current on the
Foundations’ Service Life
FTA has yet to resolve the issue of the corrosive effect of stray current along the
piles that underlie the foundations; but it has agreed that further tests are needed to
address the issue. For over 25 years, the steel piles have been exposed to electric
current from the rails of the orange line that stray from the intended path into the
soil. The piles closest to the tracks are most likely to pick up these currents that
can, over time, cause significant pile corrosion. While stray current testing was
addressed in the testing plan, based on documentation we received, the DTP
testing did not adequately measure the effect of stray currents on the corrosion and
service life of the existing steel piles. Figure 5 illustrates stray current flow based
on soil strata resistivity (a measure of the corrosiveness of soil layers) 13 at varying
depths.




13
     Soil strata resistivity is a measure of the corrosive ability of soil layers. The lower the resistivity of a soil layer is, the
     higher the magnitude of the corrosion current that flows through it will be, and more corrosion can be expected at
     that layer.
                                                                                                   12


Figure 5. Illustration of Stray Current Flow Based on Soil Strata
Resistivity at Various Depths
   Stray currents can flow onto and off the foundation causing corrosion of the steel piles. The
   corrosion rate will vary due to variables such as soil properties, which vary with depth.


 Steel Reinforced Concrete Pile Cap
                 Steel Piles


    Moderate Resistivity Strata /                     Moderate Resistivity Strata /
    Moderate Stray Current Flow                       Moderate Stray Current Flow




      High Resistivity Strata /                         High Resistivity Strata /
      Low Stray Current Flow                            Low Stray Current Flow




       Low Resistivity Strata / High                     Low Resistivity Strata / High
       Stray Current Flow                                Stray Current Flow




   Corrosion occurs where the stray
   current leaves the steel pile.



Source: OIG and Army Corps of Engineers

Based on work we conducted with assistance from Army Corps of Engineers'
corrosion experts, the stray current testing used insufficient measurements and
criteria and was not conducted at sufficient depth. Further, our review of the
testing plan and the two rounds of tests conducted on the piles in 2008 and 2010
found that the tests did not include a critical test essential for measuring stray
current. While an admittedly complicated issue, these testing deficiencies were not
identified through FTA’s oversight. As a result, without this additional testing it is
not feasible to calculate the piles’ service life and determine the need for corrosion
control measures.
                                                                                                                      13


Specifically, we found that more measurements and documented support for the
testing criteria was needed. The tests performed, such as pile-to-earth potential and
earth-potential gradient, 14 included measurements that, although useful for
indicating the presence of stray currents, are not useful to calculate stray current
density on the pile. 15 The current density is essential for determining the rate of
pile corrosion. Determining the rate of corrosion (i.e., the amount of steel lost over
time) is necessary to estimate the piles’ remaining service life. Further, the testing
plan established a threshold to describe stray current activity that was not
supported by a technical reference.

DTP drew incorrect conclusions from the stray current and soil resistivity testing.
DTP’s stray current testing was not conducted deep enough in the ground. The
measurements accounted only for conditions close to the earth’s surface and not
for the entire length of the piles. Because the measurements were taken at shallow
depths, test results are inconclusive regarding the overall condition near the
bottom of the piles. Further, DTP’s soil resistivity tests conducted at various
depths indicated a potentially corrosive environment for steel. However, DTP
dismissed the soil resistivity test results due to the lack of oxygen in the soil below
the pile caps, and concluded that the minimal amount of corrosion detected in the
piles did not warrant corrosion control measures. Contrary to DTP’s conclusion,
the soil resistivity recorded at different depths indicates that the stray current
corrosion will vary with pile depth regardless of the oxygen content in the soil.
Without resolution of this complex issue, MWAA has no assurance that the
structures will meet service life expectations.

Although DTP stated that it completed all planned tests and inspections in 2008
and 2010, our review identified a planned test that was not completed. Further, we
found that MWAA and DTP have not determined the service life for the existing
pile foundations. Moreover, FTA’s oversight had not identified the missing test or
sufficiently pushed for resolution of the service life issue. Specifically:

     • DTP did not measure or obtain historical data on track-to-earth resistance in
       accordance with the testing plan. As a result, MWAA formally instructed DTP
       to measure the track-to-earth resistance. The Corps experts maintain that the
       track-to-earth tests should have been conducted concurrently with tests to
       determine stray current density in order to establish accurate “baseline”
       conditions for future evaluations of stray current conditions.


14
     Pile-to-earth potential and earth-potential gradient measure general stray current activity and direction of stray
     current flow at the test locations. Both the structure-to-earth potential and earth potential gradient values are a
     function of soil resistivity, overall circuit resistance, placement of the measuring electrodes, and stray current
     magnitude.
15
     Current density, which is the amount of current over an affected area, is measured in amperes per unit area. The pile-
     to-earth potentials and earth-potential gradients are measured in volts and do not provide the current density.
                                                                                     14


     • MWAA and DTP installed steel electrodes, at the top of the piles at four
       foundations, for future monitoring of stray currents. According to experts
       from the Corps, these installations will not provide the data to determine the
       rate of corrosion along the pile length. Without the rate of corrosion, it is
       impossible to calculate the piles’ service life and determine the need for
       corrosion control measures.
     • DTP did not use a recognized engineering corrosion methodology to
       determine accurately the stray current densities, which is the amount of
       current over an affected area, at various soil depths. Experts from the Corps
       stated that a recognized corrosion engineering methodology involves
       installing coupons, or metal strips, along the length of a pile in each of the 11
       foundations to calculate the piles’ corrosion rates. See figure 6 on next page
       for an illustration of how coupons could be installed along the length of a pile
       to measure stray current densities.

It is important for FTA to resolve any issues associated with measuring stray
currents to provide assurance that the structures being turned over to WMATA
meet FTA’s guidance for a 50-year minimum service life requirement for railroad
and highway structures. 16 In May 2008, WMATA had informed MWAA that the
acceptance of the existing structures would be based on compliance with
WMATA’s design criteria including a demonstration that the life cycle
performance of these structures will be commensurate with that required for the
new construction atop them. In April 2011, WMATA informed us that it fully
expects to see a demonstration that the foundations can safely carry the design
loads for their expected service life before it accepts operation of the Dulles
project. In June 2011, WMATA informed MWAA that it was satisfied with the
service life issue, but it did not provide details on the number of years it considers
acceptable for the service life of the foundations. 17 According to the Corps’
experts, the service life of these structures must be confirmed before project
construction is completed.




16
     FTA Circular 5010.1D.
17
     FTA’s PMOC reported on this correspondence in its June 2011 monthly report.
                                                                                                   15


Figure 6. Illustration of Coupon Installation to Measure Stray
Current Densities
                                          Multi-Channel Digital Recording
                 Shunt Resistor           DC Milli-Voltmeter

                                  V                   Test Lead to Steel Pile
 Insulated Test Lead Wire
 from each Coupon to                                          Steel Reinforced Concrete Pile Cap
 Corresponding Shunt Resistor
                                                               Steel Piles




  Coupons every 5 feet down
  with individual lead wires
  and shunt resistors




Source: OIG and Army Corps of Engineers

In FTA’s June 2012 response to our audit report, it concurred with our findings
and stated that it will direct MWAA to conduct tests to directly measure stray
current and address the remaining service life of the old foundations. Our review
of a proposed plan for the tests found that the plan generally addresses the
                                                                                      16


deficiencies we identified in the earlier testing although we have outstanding
concerns related to two areas.

 • First, the proposed plan limits the stray current tests to 2 of the 11 re-used
   foundations but it is unclear whether these locations actually reflect the
   greatest stray current activity as the plan initially claimed. While there may be
   plausible factors that make it difficult to test certain locations, it is critical that
   locations not selected for testing, but susceptible to high levels of stray current
   activity, be included in the evaluation for metal loss and remaining service
   life. The proposed plan is not clear on how those untested locations will be
   accounted for and analyzed for their compliance with the established metal
   loss and service life criteria.

 • Second, the proposed plan initially omitted the necessary baseline track-to-
   earth tests but our understanding now is that they will be scheduled to occur
   after track work upgrades in the vicinity of the old existing foundations are
   complete. While the scope of the upgrades to the existing track work is
   unclear, any improvements to the ballast, ties, and other track components in
   the vicinity of the old foundations will likely increase the track-to-earth
   resistance and consequently decrease the level of stray current activity in the
   area. This would consequently result in test data that do not reflect historical
   or worst-case conditions. Therefore, to quantify the impact from the track
   work upgrades, before and after baseline track-to-earth resistance
   measurements are necessary to ensure that past and future metal loss
   calculations are not underestimated.

FTA HAD NOT TAKEN SUFFICENT ACTION TO ADDRESS RISKS
THAT COULD AFFECT THE DULLES PROJECT’S SCHEDULE,
COST, AND FUNDING CAPACITY
FTA had not taken adequate action at the time of our draft report to address the
Dulles project’s schedule, cost, and funding risks, such as receiving delivery of
new rail cars on time, improving rail line operating systems, and funding a reserve
account, that could impact MWAA's FFGA commitments to the Federal
Government. While FTA took some action on cost, schedule, and funding issues
in response to our draft report, such as approving MWAA’s Risk and Contingency
Management Plan, it has not fully addressed all risks we identified and still faces
the significant challenge of closely monitoring MWAA’s newly promised actions
for the duration of construction.
                                                                                                                      17


FTA Had Not Addressed Potential Railcar Delivery or Rail Yard
Expansion Delays That May Impact the Timely Completion of the
Dulles Project
FTA had not taken sufficient action to ensure WMATA delivers railcars on
schedule—a risk to meeting the FTA revenue operations date (ROD) 18 specified in
the FFGA. As FTA’s oversight procedures require, the PMOC has provided
monthly reports to FTA citing schedule risks, including the possible delayed
delivery of railcars needed to make the Dulles project operational. However, FTA
has not yet accepted a plan addressing WMATA’s ability to cover a railcar
shortfall. In November 2011, the PMOC reported that the 64 railcars to service the
silver line would not be delivered until April 6, 2015, 4 months beyond the
FFGA’s December 1, 2014, ROD. WMATA stated that it would use railcars from
its existing fleet in the event of a delayed delivery but, as of February 2012, when
we issued our draft report, FTA had not accepted a plan demonstrating that it
could meet and exceed railcar requirements during peak operating hours for all
Metrorail lines in case of delayed delivery of the silver line railcars. 19 In May
2012, after we issued our draft report, FTA received another Rail Fleet
Management Plan from WMATA, which FTA is reviewing and plans to finalize
by January 2013. However, until it accepts WMATA’s plan, FTA cannot be sure
WMATA’s assertions are correct. Further, the railcar manufacturer (Kawasaki)
stated that because of the March 2011 earthquake and tsunami in Japan, 20 the new
railcar delivery could be delayed an additional 6 months—adding more time to the
initial delay already identified.

Delays in the expansion of the West Falls Church Yard, a critical facility for
storing, inspecting, and servicing railcars, could also still negatively impact the
phase 1 scheduled completion date. In February 2010, the PMOC began reporting
that DTP and MWAA disagreed on whether to include the Yard’s expansion in the
Dulles project’s critical path, the list of activities critical to ensuring the entire
project is completed on schedule. This expansion is included in the FFGA’s scope
of work for phase 1; therefore, the expansion’s completion is required by the
FFGA’s December 1, 2014, ROD. If the Yard’s expansion is not included in the
project’s critical path, it could result in the inaccurate reporting of the Dulles
project’s scheduled completion. If project delays result in missing the FFGA
deadline for revenue operations, MWAA would then have to request FTA to
waive the delay and to extend the ROD.

18
     The revenue operations date is the scheduled completion date for the project.
19
     A Rail Fleet Management Plan should enable WMATA to properly plan for and carry out the overall management of
     its entire fleet of locomotives and railcars. To be effective, the plan should address existing and future equipment
     needs, including vehicle life expectancy; the requirements for peak and spare vehicles; strategies for the acquisition
     of new vehicles; and strategies for maintenance and operations.
20
     Several subcontractors for Kawasaki that are manufacturing parts for the railcars are located near Tokyo, Japan, and
     have experienced extensive power outages that have affected design and manufacturing.
                                                                                                           18


According to FTA, MWAA and its contractor reached an agreement in May 2012,
that settled the scheduling issue between the parties. In response to our draft
report, FTA has promised to monitor the implementation of the agreement as
construction work in the West Falls Church Yard continues.

FTA Had Not Taken Sufficient Action To Mitigate Potential Cost
Increases or Depletion of the Budget Contingency
While monthly PMOC reports have repeatedly identified railcar procurements, rail
line improvements, and utility relocations, among other things, as potential cost
risks, FTA had not identified the effect these cited risks could have on the Dulles
project or the probability of them occurring. For example, the PMOC reported
potential risks with WMATA’s automatic train control, traction power, and
communication systems design upgrades; however, FTA did not quantify these
risks. In March 2011, the PMOC reported concerns regarding the adequacy of the
Dulles project’s contingency, stating that the “remaining allowance items will
utilize most of the remaining contingency.” In July 2011, the PMOC expressed
concerns that the estimated budget overruns were $115 million, 21 while the
remaining contingency was $87 million, leaving a deficit of $28 million.

In September 2011, the PMOC again expressed concern about the remaining
contingency, which at that time had declined to $82.3 million. In December, the
PMOC noted that it had further declined to $49.8 million. To demonstrate how
MWAA plans to manage cost risks and use its contingency through project
execution, MWAA submitted an updated Risk and Contingency Management Plan
to FTA. However, at the time of our draft report in February 2012, FTA had not
accepted MWAA’s plan. Given the forecasted magnitude of these cost overruns,
the Dulles project could exceed the cost estimate contained in the FFGA, unless
cost savings are identified or FTA amends the FFGA.

Despite the cost risks, FTA had not required MWAA to fund a $200 million
CAPRA called for in the FFGA, a key risk mitigation tool for dealing with cost
overruns. The CAPRA would cover costs that exceed the contingency funding
levels that were included in the original project budget. MWAA stated that it
would address CAPRA funding in conjunction with the Dulles Project’s phase 2
finance plan. The FFGA calls for financing the CAPRA through revenue bonds in
the event of cost overruns on the project.

After we issued our draft report, FTA took action to ensure that MWAA has
sufficient funding available to supplement existing contingencies. However, FTA
contended that MWAA does not need to fund the CAPRA because it has identified
alternative cost measures. Specifically, MWAA recently identified $71 million in
21
     Estimated overruns include $59 million in allowance items yet to be awarded and nearly $56 million in open
     directive letters.
                                                                                   19


finance cost savings, according to FTA. Further, in April 2012, FTA approved
MWAA’s final Risk and Contingency Management Plan and assured us that
MWAA will have sufficient contingency funds available. While the plan could
alleviate the need for a CAPRA, FTA faces the significant challenge of ensuring
that MWAA takes risk mitigation measures for the duration of project
construction, as called for in the plan.

CONCLUSION
The Dulles Project is a high profile, multibillion-dollar effort aimed at connecting
Northern Virginia’s fastest growing employment regions and providing access
between the District of Columbia and its major international airport, through a
high-capacity rail system. FTA is responsible for overseeing the $3.1 billion phase
1 of the Dulles project to ensure it is constructed safely and efficiently. However,
FTA was slow in responding to concerns we identified related to safety testing on
foundations supporting part of the project. Also, FTA has not been sufficiently
proactive in addressing risks that could impact the project’s cost, schedule, and
funding capacity, underscoring the need for FTA to assess the effectiveness of its
oversight processes. While in recent months, FTA has addressed or provided
specific planned actions to resolve remaining concerns we had, it is critical for
FTA to continue working with MWAA to address all potential safety issues as
well as risks that could lead to delays, cost overruns, and funding shortfalls on the
project.

RECOMMENDATIONS
We recommend that the Federal Transit Administrator:
1. Verify that valid criteria exist to determine lateral load capacity of the existing
   foundations with analyses that are based on assumed, non-tested, capacity of
   piles, and provide oversight to ensure that the Metropolitan Washington
   Airports Authority executes any resulting changes to the analyses, design, and
   testing requirements.
2. Develop and implement a plan, with milestones, to ensure that the
   Metropolitan Washington Airports Authority carries out appropriate stray
   current tests to calculate the piles corrosion rate and estimate their remaining
   years of service. Specifically:
       a. Measure the maximum stray current density with steel coupons installed
          vertically at multiple depths adjacent to the pile(s) selected for testing,
          and use the current densities measured to calculate the steel corrosion
          rate.
                                                                                  20


       b. Establish the thresholds for stray current density and corrosion rate that
          will achieve the desired service life, and calculate the remaining service
          life for the old foundations.
       c. Test the track-to-earth resistance to establish baseline conditions
          concurrently with the stray current density.
       d. Use the track-to-earth resistance and stray current density test results to
          design the corrosion protection measures that meet the service life goal.
3. Develop and implement a plan, with milestones, to ensure that the
   Metropolitan Washington Airports Authority installs any applicable corrosion
   protection measures that emerge from the stray current tests before the
   Washington Metropolitan Area Transit Authority accepts the final Dulles
   phase 1 project.
4. Require the Metropolitan Washington Airport Authority to resolve potential
   schedule delays by finalizing the Washington Metropolitan Area Transit
   Authority’s Rail Fleet Management Plan to ensure that sufficient railcars will
   be available for the silver line, without negatively impacting Metrorail service
   on other lines.

5. Require the Metropolitan Washington Airport Authority to resolve potential
   schedule risks by working with the Metropolitan Washington Airport
   Authority and its contractor to make a final determination as to whether the full
   scope of the West Falls Church Yard’s expansion is accounted for and falls
   within phase 1 of the Dulles project’s critical path; and if so, properly adjust
   the project schedule and cost to reflect this.

6. Require the Metropolitan Washington Airport Authority to resolve potential
   funding risks by funding the $200 million for the Capital Reserve Account.

7. Finalize the Metropolitan Washington Airport Authority’s Risk and
   Contingency Management Plan to ensure mitigation plans are in place to
   address cost risks.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA with our draft report for review and comment on
February 15, 2012. We received its technical comments on June 5, 2012, and its
formal response on June 7, 2012. FTA’s response is included in its entirety as an
appendix to this report. In its response, FTA indicated that in addition to the
actions it plans to take to address the seven recommendations in this report, it now
intends to review the project management oversight contractor process to ensure
                                                                                  21


that it is as effective as possible. Based on the issues we encountered in the course
of our audit, we agree with FTA’s decision.

In addressing our seven recommendations, FTA concurred with recommendations
1, 2, 3, 5, and 7 and partially concurred with recommendations 4 and 6, but
provided acceptable alternative actions. FTA’s response to our draft report attested
that its consultants have validated the criteria that MWAA used to determine the
lateral capacity of the existing foundations with analysis based on assumed, non-
tested capacity of piles. Therefore, we will consider this recommendation resolved
and closed.

We consider FTA’s planned action and timeframe to address recommendation 2 to
be generally responsive, and therefore, will consider the recommendation resolved
but open, pending completion and implementation of a testing plan. To ensure
implementation of the appropriate stray current tests to calculate the piles
corrosion rate and estimate their remaining years of service, the final testing plan
and the report on the testing results should identify how untested locations will be
accounted for and establish baseline track-to-earth resistance measurements before
testing begins.

We consider FTA’s planned actions and timeframes to address recommendations 3
and 4 sufficient, and therefore, consider them resolved but open pending
completion of the planned actions. Similarly, FTA’s actions to address
recommendations 5, 6, and 7 are responsive to the intent of our recommendations;
and we consider the recommendations resolved but open pending receipt of
documentation of the actions taken by FTA.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation
Order 8000.1C, we request that FTA provide us within 30 days documentation of
the April 2012 final Risk and Contingency Management Plan and the May 2012
agreement that settles the scheduling issue on the West Falls Church Yard. After
we receive acceptable documentation, we will close recommendations 5, 6, and 7.
We also request that FTA continues to provide the monthly PMOC reports to our
office for the duration of the Dulles project. For recommendation 2, we request a
copy of the final stray current test plan MWAA will implement, including a plan
for accounting for untested locations and for collecting baseline track-to-earth
resistance measurements. For recommendations 2, 3, and 4, we also request that
FTA provide us with documentation of the actions taken within 10 days after they
are completed.
                                                                                22


We appreciate the courtesies and cooperation of the Federal Transit
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Wendy M. Harris, Program Director, at
(202) 366-2794.

                                        #

cc: Angela Dluger, FTA Audit Liaison
    Martin Gertel, DOT Audit Liaison
                                                                                   23



EXHIBIT A. SCOPE AND METHODOLOGY AND RELATED WORK
We conducted this audit from December 2009 to February 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To assess potential safety concerns, we documented several sources used for
criteria to assess the safety of existing foundations used to support a section of
guiderail. We reviewed pile testing plans proposed by DTP, the contractor, and
MWAA, the Dulles project sponsor, and the evaluation of the testing plans by
FTA and by WMATA, the eventual operator of the system. We interviewed key
FTA and PMOC officials and officials from MWAA, DTP, and WMATA to ask
specific questions and obtain information regarding required load testing, testing
to evaluate stray current corrosion and corrosion protection measures, and
projected service life of the existing foundations. We reviewed testing results as
documented in (1) an inspection and test program final report from DTP, (2) an
inspection and testing report from the special inspections agent for MWAA, and
(3) an MWAA quality assurance report. We evaluated FTA’s and WMATA’s
reviews of the reports. We also reviewed a large amount of new and updated
information generated after we discussed preliminary audit findings with FTA in
March 2011. We contracted the services of the U.S. Army Corps of Engineers for
its expertise in infrastructure projects, in support of the findings and conclusions
of our own engineers regarding service life.

To evaluate the effectiveness of FTA’s general oversight, we reviewed material
collected from an earlier monitoring effort of the Dulles project that resulted in our
July 2007 baseline report. We then got an updated picture of project status,
particularly through PMOC monthly progress reports from September 2009
through December 2011. We reviewed FTA oversight policies and procedures,
including those specifically applicable to PMOC oversight requirements. We
interviewed key FTA and PMOC officials to ask specific questions, obtain
information, and evaluate their general knowledge of and involvement in the
Dulles project. We obtained information from key personnel via telephone and
e-mail as well as through site visits. We reviewed the Dulles project’s project
management plans, project schedules, and other routine project documents. We
reviewed MWAA monthly progress reports dated August 2008 through November
2011. We reviewed the project’s latest financial capacity assessment, the 2008
Risk and Contingency Management Plan, and the efforts to complete an updated
Risk and Contingency Management Plan.



Exhibit A. Scope and Methodology and Related Work
                                                                                 24


Related Work
On July 27, 2007, we issued Report MH-2007-060, “Baseline Report on Major
Project Monitoring of the Dulles Corridor Metrorail Project.” We issued the
baseline report during the time period that FTA was considering whether to fund
the Dulles project. In this report, we identified key indicators, including MWAA’s
lack of experience in transit construction and the complicated nature of the project
because of the number of parties involved. The report stressed the need for vigilant
FTA oversight. All of our recommendations were closed by May 19, 2008.

In October 2009, we followed up with a management advisory requesting FTA to
review the PMOC’s performance, develop a plan outlining how sufficient testing
would take place, and specify oversight enhancements. FTA responded in
January 2010 stating that (1) the PMOC had requisite expertise; (2) it would
require MWAA to develop a comprehensive testing plan involving all
11 foundations; (3) it would employ a full-time, on-site PMOC representative; and
(4) MWAA’s testing regime was adequate, subject to the fulfillment of certain
conditions. Two key conditions were that (1) MWAA would hire an inspections
contractor to oversee testing and (2) MWAA would audit DTP's design to ensure
the testing results were incorporated into the final design documents. MWAA
hired CTI Consultants to oversee testing, and assist in MWAA’s quality assurance
review.




Exhibit A. Scope and Methodology and Related Work
                                                 25



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Transit Administration

Hill International

Metropolitan Washington Airports Authority

Washington Metropolitan Area Transit Authority

Dulles Transit Partners

CTI Consultants

Virginia Department of General Services

Fairfax County Government

U.S. Army Corps of Engineers

Deloitte Touche Tohmatsu

Bushman & Associates




Exhibit B. Organizations Visited or Contacted
                                                                                   26



EXHIBIT C. COMPLIANCE WITH ARRA OBLIGATION,
OVERSIGHT, AND REPORTING REQUIREMENTS
FTA obligated ARRA funding for the Dulles project in about 90 days, ahead of
the required deadline. ARRA provided $750 million for New Starts and Small
Starts projects under the Capital Investment Grants Program, and required FTA to
select projects currently in construction or those in which funds could be obligated
within 150 days of ARRA’s enactment on February 17, 2009. FTA met the
obligation requirements on the Dulles project by allocating $77,260,000 to the
Dulles Corridor Metrorail project in May 2009. The Dulles project had only
recently received its requested FFGA of $900 million in March 2009, and the
ARRA funding became a portion of that funding—it was not in addition to it.

While FTA exempted its New Starts projects, such as the Dulles project, from
additional ARRA oversight mechanisms required by the Office of Management
and Budget, MWAA met the supplementary requirement FTA put in place for
ARRA grantees. FTA exempted New Starts projects receiving ARRA funds from
the oversight requirements because it considered the existing oversight program,
such as PMOC reviews, for these major projects to be more effective. However,
FTA added a question to its annual grantee assessment concerning ARRA on
whether the grantee “lacks adequate resources necessary to manage FTA-funded
programs, including ARRA, in accordance with FTA requirements.” MWAA
answered that it did not lack such resources.

Our review showed that the Dulles project met all ARRA Section 1512 reporting
requirements, including those on expenditures and ARRA-funded jobs. These
requirements state that not later than 10 days after the end of each calendar
quarter, each recipient of recovery funds from a Federal agency shall submit a
report to that agency that contains:
       (1) the total amount of recovery funds received from FTA,
       (2) the amount of recovery funds received that were expended or obligated
       to projects or activities,
       (3) a detailed list of all projects or activities for which recovery funds were
       expended or obligated, including,
              (A) the name of the project or activity;
              (B) a description of the project or activity;
              (C) an evaluation of the completion status of the project or activity;
              (D) an estimate of the number of jobs created and the number of jobs
              retained by the project or activity;


Exhibit C. Compliance With ARR A Obl igation, Oversight, and
Reporting Requirements
                                                                               27


             (E) for infrastructure investments made by State and local
             governments, the purpose, total cost, and rationale of the agency for
             funding the infrastructure investment with funds made available
             under this Act, and name of the person to contact at the agency if
             there are concerns with the infrastructure investment;
      (4) detailed information on any subcontracts or subgrants awarded by the
      recipient to include the data elements required to comply with the Federal
      Funding Accountability and Transparency Act of 2006 (Public Law
      109-282), allowing aggregate reporting on awards below $25,000 or to
      individuals, as prescribed by the Director of the Office of Management and
      Budget.

According to the 1512 reports, MWAA expended all ARRA funds by the end of
2009. According to the reports, the Dulles project incurred expenditures of
$28,668,148 during the quarter ending September 30, 2009, which resulted in 827
jobs. The project reported expenditures of $48,591,852 during the quarter ending
December 31, 2009, and 883 jobs. In addition, the Dulles project made
14 payments totaling $77,246,790 to “vendors greater than $25,000” and
2 payments totaling $13,210 to “vendors less than $25,000.” With no remaining
funds, the project reported no expenditures and no ARRA-funded jobs during the
quarter ending March 31, 2010.




Exhibit C. Compliance With ARR A Obl igation, Oversight, and
Reporting Requirements
                                                                                                                       28


           EXHIBIT D. OIG 2009 MANAGEMENT ADVISORY TO FTA




           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:                                                                                    Date:    October 22, 2009
               ACTION: Management Advisory on
               Dulles Corridor Metrorail Project
               Safety Concerns
  From:                                                                                  Reply to
               Joseph W. Comé                                                            Attn. of:   JA-40
               Assistant Inspector General for
                 Surface and Maritime Program Audits
    To:        Federal Transit Administrator
               A potentially serious safety issue regarding the adequacy of foundations at a segment
               of the Dulles Corridor Metrorail Project (Dulles Project) remains unresolved nearly a
               year after we first brought it to the Federal Transit Administration’s (FTA) attention. 1
               The Dulles Project involves a $900 million Federal funding commitment and
               financial support through the American Recovery and Reinvestment Act (ARRA);
               and we previously reported on the need for FTA to provide vigilant oversight of this
               challenging, high-profile transit project. 2 In September 2008, a credible source
               contacted us asserting that the project sponsor had not conducted sufficient testing on
               eleven pier foundations and underlying steel piles that were built 30 years ago and
               will support a portion of the project’s new guiderail. After a review of the source’s
               information by our senior engineer advisor, we generated a Hotline complaint to FTA
               in November 2008. In a June 2009 response to the complaint, FTA reported that the
               issue had been resolved and asked us to close the Hotline case. However, our
               investigation of FTA’s response found that it was incomplete and a subsequent
               review by FTA’s own project oversight consultant concluded that additional testing
               of the 30-year old structures is still needed before the project’s safety can be
               certified.

               This safety concern, combined with the additional scrutiny required for projects
               receiving ARRA funding, has prompted us to plan an audit of FTA’s oversight of the
               Dulles Project. Both the President and Congress called on Federal agencies to ensure
           1
               OIG Hotline Number 09IH-A35-I-000, November 13, 2008.
           2
               OIG Report Number MH-2007-060, “Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail
               Project,” July 27, 2007. Our reports can be found on our website: www.oig.dot.gov.
           Exhibit D. OIG 2009 Management Advi sory t o FTA
                                                                                     29

unprecedented transparency, provide enhanced oversight, and prevent imprudent
investments of ARRA funds. Accordingly, in advance of finalizing our Dulles
Project audit plan, we are issuing this advisory to ensure that FTA promptly
addresses our specific safety concern and provides effective oversight. Our
conclusions can be found at the end of this advisory.

BACKGROUND
In July 2007, we reported on risk indicators that warranted FTA’s close monitoring of
the Dulles Project, including the project sponsor’s, Metropolitan Washington
Airports Authority (MWAA), lack of experience in transit construction. We stressed
the need for vigilant oversight to prevent the cost increases, schedule delays, and
construction quality problems that we had observed on other projects with similar
risk indicators.

In September 2008, we became aware of assertions that insufficient safety testing
was done on eleven 30-year old foundations and piles. Further, we learned that
MWAA and its contractor, Dulles Transit Partners (DTP—a partnership of Bechtel
Infrastructure, Inc. and Washington Group International—now URS Corporation),
plan to use these existing foundations and underlying piles to support elevated track
that will span part of Interstate 66 and merge with existing Metrorail track in the
direction of East Falls Church Station.

In order to certify the safety of using the existing foundations for the new project, it
is necessary to confirm the foundations’ capacity to bear the required loads and
verify their physical integrity. Critical elements necessary to evaluate the safety of
the foundations include:

• “as-built” drawings to confirm the exact location and as-built configuration of the
foundation structures, such as piles and their concrete caps, and determine how
the load is distributed among these structures;

• original pile-driving records from when the foundation piles were driven into the
ground, or subsequent pile load tests to confirm the load-bearing capacity; and

• knowledge of the physical condition of the site and the existing foundations to
assess whether any damage has occurred over time that could reduce their service
life.

In the absence of as-built drawings and other historical data, it is prudent to conduct
comprehensive pile load testing and physical observation and measurements.

On November 13, 2008, our Hotline office requested that FTA respond to the
assertions of insufficient testing. Specifically, we requested that FTA provide



Exhibit D. OIG 2009 Management Advi sory t o FTA
                                                                                                             30

    (1) verification of the plan to use existing pile foundations and actions FTA was
    taking to ensure the safety of this approach; (2) information on the level of
    knowledge FTA’s project management oversight consultant (PMOC) had of this
    approach and whether the PMOC opined on its safety; (3) confirmation that MWAA
    believed this approach would be safe; and (4) confirmation that the Washington
    Metropolitan Area Transit Authority (WMATA), the eventual operator of the transit
    extension, 3 was aware of this approach and in agreement that it would be safe.

    RESULTS OF OUR REVIEW OF FTA’S RESPONSE TO THE
    HOTLINE COMPLAINT
    FTA’s June 2009 response to our Hotline complaint was incomplete and inconsistent
    with subsequent information that FTA provided to us. FTA’s response concluded
    that DTP had conducted adequate physical investigations and verification of the
    foundations’ locations. Relying on assurances from MWAA and DTP, FTA’s
    response provided an inventory of existing pier foundations; planned piles work at
    each location; the results of physical investigations on three of the existing
    foundations, and their condition; and the location of the piles as depicted in what
    FTA’s response referred to as “as-built” plans. FTA further stated that DTP’s visual
    inspections of the three foundations did not find any corrosion in the piles, and
    verified the location of all other piles by test pits. FTA recommended closing the
    Hotline case with no further action required.

    Because FTA did not completely respond to our requests on whether other parties
    were aware of the planned use of the existing foundations and whether they agreed
    with the safety of this approach, we requested additional information.        On
    September 16, 2009, FTA provided us with additional documentation including the
    following:

    • A September 14, 2009, PMOC “spot report” on the safety issues involved with
      the eleven foundations. FTA’s PMOC determined that it could not confirm the
      load capacity of the piles without as-built plans and pile driving data. Further, the
      PMOC concluded that two 2008 load tests were insufficient to confirm the
      capacity of all the piles and “due diligence” required that pile data analysis testing
      (PDA) be performed at all locations—not at six locations as the project’s
      contractor proposed.        The PMOC also recommended physical corrosion
      measurements at five specific locations.

    • A February 2009 report by a consultant on corrosion and stray current
      measurements at three foundation locations. The report shows that, although the
      steel loss experienced over 30 years has not compromised the integrity of the piles,
      possible high stray currents from nearby existing Metrorail tracks could
      corrode the piles and affect their service life, leading to the need for greater

3
    Upon completion of the project, MWAA will turn it over to WMATA. The project will then be operated as part of
    WMATA’s larger Metrorail system.
Exhibit D. OIG 2009 Management Advi sory t o FTA
                                                                                    31

  maintenance over time.        WMATA’s eventual acceptance of the existing
  foundations is contingent on compliance with the design criteria, particularly a
  demonstration that the foundations meet WMATA’s 100-year service life
  requirement for new structures.

Overall, our review of this engineering documentation showed that the information
was inconsistent with FTA’s June 2009 response. As a result, FTA and its PMOC did
not have assurance that sufficient testing had occurred at the time FTA asked us
to close the Hotline complaint. For example, according to the September 2009
documentation, there are no as-built drawings for the existing foundations, as FTA
and the project sponsor initially stated.

In conclusion, we agree with the PMOC’s recommendation for additional testing and
measurements. The lack of as-built plans and pile driving records, and the fact that
only two pile load tests were done, underscore the need for additional testing to
confirm the location and load capacity of all the foundations that the contractor plans
to use in the Dulles Project. Also, implementing the PMOC’s recommendations is
necessary to resolve WMATA’s concerns about the service life of the foundations.

Further, we are concerned that the PMOC appeared to focus attention on these issues
only after we raised questions about FTA’s response to the Hotline complaint. We
are also aware that FTA recently informed MWAA of the PMOC’s recommendations
and requested a response as to how the safety concerns will be addressed. However,
given the seriousness of the issues raised in this management advisory and to
mitigate any potential safety risks, FTA should conduct a review of its PMOC’s
performance to assess whether it is ensuring adequate oversight coverage of the
project. FTA should also develop a plan outlining how FTA will ensure that
sufficient testing of the existing foundations will take place before additional
construction is undertaken at the locations in question. Finally, FTA should outline
any additional steps FTA plans to take to enhance future oversight of the Dulles
Project.

We request a written response detailing any actions FTA plans to take with regard to
this potential safety issue within 4 weeks of the date of this memorandum. We will
consider actions taken as a result of this management advisory as part of our planned
audit of FTA’s Dulles Project oversight, including cost, schedule, project
management, financing, safety, and interagency coordination issues. We will contact
your audit liaison before we begin our audit.




Exhibit D. OIG 2009 Management Advi sory t o FTA
                                                                 32

If you have any questions concerning this memorandum, please call me
at (202) 366-5630.

                                          #

cc: Robert Tuccillo, FTA
    Susan Schruth, FTA
    Letitia Thompson, FTA
    Brian Glenn, FTA
    Scott Biehl, FTA
    Robert Owens, FTA
    Martin Gertel, OST
    Heather Albert, Office of Inspector General Hotline




Exhibit D. OIG 2009 Management Advi sory t o FTA
                                                                                                      33

    EXHIBIT E. FTA'S RESPONSE TO OIG'S MANAGEMENT ADVISORY AND
    FTA'S RELATED LETTER TO MWAA

                                                  Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration

Subject:    Management Advisory on Dulles Corridor Metrorail             Date:
            Project Safety Concerns

  From:     Peter Rogoff, Administrator                               Reply to
                                                                      Attn. of:

    To:     Joseph W. Comé, Assistant Inspector General for
              Surface and Maritime Program Audits

    In response to your October 22, 2009, Management Advisory, the Federal Transit
    Administration (FTA) has taken a number of steps to improve oversight of the Metrorail
    Extension to Wiehle Avenue (Dulles) project. In summary, FTA undertook a risk assessment
    process in which we concluded that based on the complexity, size, and risks involved for the
    successful completion of the project, an enhanced level of oversight was warranted and has
    been initiated. That being said, I want to acknowledge a serious performance lapse within
    FTA that resulted in an unacceptable delay in the FTA's response to issues your office raised
    in November 2008. This lapse also resulted in the FTA's attempt to close the issue without
    adequate cause and without appropriate sign-off by senior management. I have taken specific
    personnel and disciplinary actions as a result of this lapse and have also established improved
    processes to ensure that such lapses do not occur in the future.

    Dulles Rail Project Receives Enhanced Oversight

    FTA is making every effort, within the bounds of its statutory authority, to ensure that the
    completed Dulles project is both safe for passengers and constructed within established cost
    parameters. Based on FTA's review of project documents, interviews with MWAA staff, and
    our review of the OIG findings contained in your July 2007 report, we decided to implement
    an enhanced system management oversight for the Dulles project as we approved the
    Dulles project for Final Design and a Full Funding Grant Agreement (FFGA). FTA used two
    Project Management Oversight Contractors (PMOCs) to provide independent project cost
    estimates. We also performed a detailed risk assessment. Once the FFGA was signed, we
    further ramped up our direct oversight of the project by increasing our regular meetings with
    the project sponsors to twice each month. In addition, on November 17, 2009, my staff issued
    a task order to the PMOC, authorizing full-time, on-site PMOC personnel effective January 1,
    2010 specifically for the Dulles Project. FTA implements this exceptional level of oversight
    when it determines that the complexity, size, or risks associated with the successful
    completion of a fixed rail transit project warrant it.


    Exhibit E. FTA’ s Response to OIG’s Management Advi sory and FTA’ s Related
    Letter to MW AA
                                                                                                    34



In accord with FTA's increasing focus on rail transit safety, the Dulles project will also be one
of the first projects required to complete the safety certification process under
FTA's Circular 5800.1 prior to initiating operations. This process has identified over 4,000
individual elements of design, construction, implementation, testing and operations related to
safety that will be reviewed as the Project moves forward. While FTA is presently limited in
its statutory authority to enforce these aspects as requirements, the Safety and Security
Management Guidance circular provides a useful tool to ensure that all items are implemented
properly.

Finally, with regard to specific concerns raised in the complaint about the safety of the piers,
FTA has now thoroughly reviewed a second plan for the testing of the piers as proposed by
MWAA. FTA rejected the first plan submitted by MWAA because we found it to be
inadequate in addressing and eliminating all potential risks. Moreover, FTA was dismayed by
MWAA's failure to take full responsibility for both the problem and the solution. The second
plan submitted by MWAA did, in fact, take appropriate responsibility and proposed a testing
regime that we have found to be adequate. FTA has, however, imposed certain conditions on
the performance of that testing regime. Those conditions are articulated in our most recent
letter to MWAA, which is attached. FTA will continue to monitor the inspection process and
review the documentation from the inspection process to ensure that all appropriate steps are
taken to ensure the structural integrity of the piers.


PMOC Has Requisite Expertise to Oversee the Project

In order to address the OIG's concerns with regard to the competency of the PMOC assigned
to the Dulles project, I asked agency experts to review the performance of Hill International,
the PMOC assigned to the project. Based on their review, we have concluded that this
PMOC, which has been part of the PMO program since its inception, has the necessary
capability and expertise to provide meaningful and effective oversight of the project, and has
been thorough in its project management oversight responsibilities regarding the Dulles
project. Please remember that the PMOC role does not ordinarily include design review. In
this case, once appropriate FTA staff became aware of the Hotline Complaint, FTA did
engage the PMOC to aid in our investigation of this matter.

It is also important to recognize that before selection, PMOC firms must demonstrate the
capability to serve in this important role. Proposals to serve as a PMOC are evaluated by an
agencywide team of engineers who rate the firms based on technical competence. Those
firms that pass this initial technical qualifying round of review are subsequently interviewed
and tested to evaluate their real-time, problem-solving capabilities. This is followed by
additional review of technical and organizational capabilities. It is not until completing this
rigorous evaluation process that a company can qualify to become a PMOC for FTA.




Exhibit E. FTA’ s Response to OIG’s Management Advi sory and FTA’ s Related
Letter to MW AA
                                                                                                    35



FTA Is Working to Resolve Issues Highlighted by Management Advisory

FTA is working to achieve final resolution of the issues relating to the structural integrity of
the foundation piers highlighted in the management advisory. FTA has been engaged with the
project sponsor, Metropolitan Washington Airports Authority (MWAA) and the ultimate
system operator, the Washington Metropolitan Area Transit Authority (WMATA) to gain
agreement on necessary actions. We have completed a series of interactions to ensure
MWAA takes sufficient responsibility, as the project sponsor, for the solution instead of
relying on the representations of its contractor. FTA, based on the findings of its PMOC,
insisted that MWAA complete a comprehensive testing regime that is sufficiently thorough to
address all safety concerns with regard to the structural integrity of the piers in question. FTA
 also insisted that any testing proposal be approved by WMA T A prior to acceptance by FTA.

MWAA submitted its response to FTA on December 2, 2009. It addresses a comprehensive
testing plan that involves all 11 piers to be re-used. An independent Special Inspections
contractor will oversee the testing and construction of all structural elements and MWAA's
QA/QC staff will ensure that testing results are incorporated into the final design. The
sensitivity of the location of two piers requires close coordination with WMATA and VDOT
to ensure safe travel and limited interruptions to Orange Line service and to traffic at 1-66 and
State Route 267 during testing in those areas. The criteria used are the same for the new
structural elements of the project. The schedule will be coordinated with WMATA and
VDOT and testing conducted at various times throughout 2010.


FTA Addressing Administrative Deficiencies Highlighted by the Management Advisory

While FTA's process for conducting project management oversight of rail projects is sound,
the OIG management advisory exposed serious deficiencies in the manner in which FTA has
handled hotline complaints from the OIG. Specifically, it highlighted several internal control
weaknesses that resulted in untimely handling of the report and initial response, insufficient
review of the response, and the lack of an approval mechanism for senior management. I am
also concerned that individual performance issues may have further undermined our
effectiveness. I have taken immediate action to address these deficiencies. Revised processes
have been implemented for OIG hotline complaints handled by FTA. Our responses to the
OIG will be fully and appropriately vetted within the agency to ensure they are complete,
appropriate, and technically sound. Finally, I have taken personnel and disciplinary actions in
response to our deficient performance by reassigning staff to provide appropriate focus to
these matters.

We appreciate the OIG's efforts with regard to this matter and understand the basis for and
rationale behind the concerns addressed in the management advisory. We have taken
immediate corrective actions where possible and are now working to resolve the remaining
issues. Please feel free to contact my office directly on (202) 366-4040 with any further
questions.



Exhibit E. FTA’ s Response to OIG’s Management Advi sory and FTA’ s Related
Letter to MW AA
                                                                                                        36


=
U.S. Department                         The Administrator                1200 New Jersey Avenue,   SE
of Transportation                                                        Washington, D.C. 20590
Federal Transit
Administration




Mr. James E. Bennett
President and Chief Executive Officer
Metropolitan Washington Airports Authority
1 Aviation Circle
Washington, DC 20001-6000

Dear Mr. Bennett:

I write in response to your letter of December 2, 2009, in which you confirmed the ultimate
responsibility of the Metropolitan Washington Airports Authority (MWAA) for compliance with
all Federal requirements pertaining to the Dulles Corridor Metrorail Project. As the Federal
grantor agency, the Federal Transit Administration (FTA) is obliged to ensure that MWAA
understands its responsibility for all representations made to FTA regarding the Project,
regardless of the contractual relationships MWAA maintains with Dulles Transit Partners (DTP)
and other third party contractors.

After review of your submittal, I accept your proposed testing plan subject to the following
conditions:

    1. MWAA' s approach to test all 11 pier foundations shall ensure their structural integrity.
       We understand the need to apply static versus dynamic testing techniques as the planned
       design and construction situation warrants. The static load testing previously performed
       on piers 1/IB and 2/IB must be compared to the dynamic testing results to calibrate the
       pile driving analysis to be done on those piers.

        We believe that the Special Inspections process in Virginia will play an important role in
        ensuring that the project is constructed as designed. Subsequent to your letter, MWAA
        staff has confirmed verbally to FTA's Project Management Oversight Contractor
        (PMOC) that MWAA's Special Inspections contractor will witness the testing and
        document the results, and that MWAA's own Quality Assurance/Quality Control
        department will audit DTP's design to ensure that the testing results were incorporated
        into the final design documents. Two items have been added to MWAA's Safety
        Certification Inspections List. FTA expects close and careful monitoring of all of these
        activities by MWAA to ensure the attention necessary to successfully implement the piers
        testing plan.



Exhibit E. FTA’ s Response to OIG’s Management Advi sory and FTA’ s Related
Letter to MW AA
                                                                                                      37



   2. We recognize the coordination efforts begun with WMATA and the Virginia Department
      of Transportation during the testing of piers 4/IB and 5B/OB, respectively. These efforts
      must be sustained to ensure safe travel and limited interruption to Orange Line service
      and to traffic at Interstate 66 and State Route 267.

   3. FTA requires that the criteria for testing the piles in the 11 existing pier foundations will
      be the same as those applied to new pile foundations that are part of the Dulles Corridor
      Metrorail Project. Our PMOC will review the testing results. Should any of these testing
      results not meet the established criteria, MWAA must inform FTA immediately and
      advise us as to any proposed mitigation measures.

   4. MWAA shall permit our PMOC to observe the testing as it proceeds over the upcoming
      months.

In sum, while FTA finds MWAA' s current testing plan acceptable, its implementation must be
carried out consistent with the conditions identified above. These steps demonstrate the needed
focus and commitment to safety which must characterize MWAA's efforts on this project going
forward. FTA looks forward to continuing its work with MWAA to guarantee the safety and
timely delivery of the Dulles Corridor Metrorail Project.

                                           Sincerely yours,




                                           Peter Rogoff

cc: John B. Catoe, Jr.,
   General Manager, WMATA




Exhibit E. FTA’ s Response to OIG’s Management Advi sory and FTA’ s Related
Letter to MW AA
                                                           38



EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Wendy Harris                            Program Director

Rodolfo Pérez                           Engineer Advisor

Tyler Apffel                            Project Manager

Anne-Marie Joseph                       Senior Engineer

Courtney Potter                         Project Manager

Frank Schutz                            Senior Auditor

Aron Wedekind                           Engineer

Luke Brennan                            Analyst

Alicia McNair                           Auditor

Harriet Lambert                         Writer-Editor




Exhibit F. Major Contributors to This Report
                                                                                                              39



APPENDIX. AGENCY COMMENTS

                                                                  Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration

Subject:     INFORMATION: Management Response to OIG                        Date:    June 7, 2012
             Draft Report on FTA Oversight of the Dulles Corridor
             Metrorail Extension Project
  From:      Peter M. Rogoff                                             Reply to
             Administrator
                                                                         Attn. of:   Angela Dluger
                                                                                     (202) 366-5303
    To:     Calvin L. Scovel III
            Inspector General


              The first phase of the Dulles Corridor Metrorail project is vitally important to the national
              capital region’s ability to plan for and manage future growth while providing balanced
              transportation choices for millions who live and work in the corridor. The Federal Transit
              Administration (FTA) is providing rigorous management and technical oversight to help
              ensure that this complex and important project is completed soundly, expeditiously, and
              according to plan—and above all, that the completed system is safe to ride.

              FTA will continue to ensure that any issues relating to ongoing construction of the project’s
              first phase, and particularly those raised in the Office of Inspector General (OIG) draft report,
              are fully and effectively resolved beyond any doubt. FTA will confirm that the project
              sponsor, the Metropolitan Washington Airports Authority (MWAA), and its construction
              contractor, Dulles Transit Partners (DTP), complete all measures necessary to demonstrate the
              structural integrity of the entire project according to standard FTA project oversight protocols,
              with particular emphasis on those few portions discussed in the OIG review.

              FTA’s project management oversight process has demonstrated its effectiveness at ensuring
              that major transit projects across the nation have been completed soundly. In response to the
              process issues raised by the OIG, FTA augmented its oversight of this project to provide
              additional assurance that the aspects relating to the relatively small number of foundation
              components (essentially a portion of the rail bridge), which are a primary focus of OIG’s
              review, effectively fulfill their functional requirements. FTA also identified additional testing
              requirements to ensure that stray current and any effect it has on the piers is carefully
              monitored and addressed. Finally, FTA recognizes that the process issues discussed in the
              OIG review highlight the merit of FTA conducting an internal review of its Project
              Management Oversight Contractor (PMOC) process to help ensure that it continues to be as
              effective as possible in monitoring project construction.

Appendix. Agency Comments
                                                                                                     40


      FTA Providing Extensive Oversight of Project Construction

      While FTA’s PMOC process has proven effective in providing independent oversight of
      transit projects across the nation, based on an October 2009 OIG management advisory, FTA
      enhanced its typical oversight processes to resolve the issues raised on a relatively small
      number of foundation components. This included assigning an independent PMOC to work
      full time on-site at MWAA’s project office for the duration of the Phase 1 project. FTA also
      engaged an outside PMOC to develop independent project cost estimates and perform a risk
      assessment that has been updated throughout the project. MWAA was also required to
      develop and implement a comprehensive test plan to address all safety concerns. FTA has
      monitored and reviewed this work to ensure that the specific requirements for testing
      established for this project were fully and effectively fulfilled.

      FTA Completed Extraordinary Measures to Confirm Structural Integrity

      Based on independent review by technical experts, FTA confirmed the foundation’s essential
      components have been demonstrated to be structurally sound through design, testing and
      independent verification in accordance with industry standards and practices.
         •   Foundation Design Exceeds Operational Requirements. The foundations discussed
             in the OIG review are conservatively designed to withstand forces many times greater
             than they will be subject to during operation. The methodology used to design the
             foundations is well accepted in the engineering industry. FTA reconfirmed the design
             through recent reviews by three additional PMOC engineering firms that are not
             affiliated with the project.
         •   Third-Party Testing Validates Foundations’ Structural Integrity. FTA ordered
             and is overseeing extensive third-party testing and analysis to confirm the strength,
             stability, and expected service life of the foundation’s key components. For example,
             MWAA retained a special inspections contractor to oversee the testing of all existing
             foundation piers including soil conductivity testing, metallurgical review and strength
             testing. FTA’s PMOC was on-site during these tests.
         •   FTA Will Require Corrosion Monitoring. MWAA must install equipment that will
             enable state-of-the-art testing to further assess and monitor the condition of the piles
             with respect to corrosion. This sophisticated testing regime will enable WMATA,
             which will operate the rail service when this project is complete, to periodically assess
             the amount of corrosion that the metal piles will experience over their full-service life.
         •   Independent Computer Modeling Confirms Foundations’ Strength, Stability.
             FTA obtained additional assessment through computer modeling to further validate the
             ability of the rail bridge foundations to withstand horizontal forces known as lateral
             loads. Such forces are imposed by rail cars moving on the tracks above, crosswinds,
             and other elements. The modeling was conducted in May 2012 by an independent
             third-party engineering firm with expertise in this type of analysis. The results
             indicate that the rail bridge’s foundations can support more than four times the load
             that would occur under normal operating conditions. In order to provide further
             confirmation, the design and analysis concepts and methods were reviewed by bridge
             experts in the Federal Highway Administration (FHWA). The FHWA bridge experts


Appendix. Agency Comments
                                                                                                       41


             concurred with the approach used in the analysis and the FB-MultiPier computer
             program used in the computer modeling.
      FTA Will Further Strengthen its Project Oversight Processes

      FTA has determined that a number of the issues in the OIG report highlight the potential
      benefit of conducting an internal review of existing processes and requirements for project
      management oversight. The processes used by FTA for conducting project oversight were
      innovative when implemented and have a demonstrated track record of success. However,
      many of the construction-related issues discussed in the OIG draft report may have been
      exacerbated by communication and review processes that could be strengthened. With the
      resolution of the immediate issues associated with this OIG review, FTA now intends to review
      the PMOC process to ensure that it is as effective as possible.

      RECOMMENDATIONS AND RESPONSE

      Recommendation 1: Verify that valid criteria exist to determine the lateral load capacity of
      the existing foundations with analyses that are based on assumed, non-tested, capacity of
      piles, and provide oversight to ensure that the Metropolitan Washington Airports Authority
      executes any resulting changes to the analyses, design, and testing requirements.

      FTA Response: Concur and completed. The methodologies employed to design the rail
      bridge foundations and to test their safety and structural integrity—especially with respect to
      their capacity to withstand anticipated lateral, or horizontal, loads—are valid, reliable, and are
      in accordance with engineering standards and industry practices. The construction contractor
      followed standard industry procedures to determine the lateral load capacity of so-called
      “batter piles,” which, along with “vertical” piles, are underground steel supports that are
      critical to providing support and stability for the bridge. Batter piles, in particular, are
      installed on an incline to more effectively buttress and stabilize the foundation to withstand
      lateral forces. Moreover, the foundations are designed to offer more than enough individual
      batter piles to withstand lateral loads greater than the structure is expected to experience in
      service once rail cars are running on the tracks above, even under adverse conditions. At
      FTA’s request, three independent engineering firms confirmed that the design approach is
      sound.

      These firms also confirmed the testing that was performed is wholly adequate to assess the
      safety of the structure and ensure that it meets industry standards. The American Society for
      Testing and Materials and the American Association of State Highway and Transportation
      Officials both have standards stating that it is acceptable to test nearby vertical piles to assess
      the load capacity of batter piles. Indeed, both types of piles are designed for the same
      capacity. Thus, no required tests or analyses were overlooked and no measures were omitted
      that would compromise the determination of the safety of the structure. Even so, FTA went
      further still, by asking another oversight contractor not engaged in the initial review of the
      work, to run computer modeling to analyze the foundation’s lateral load capacity. This
      modeling approach is an accepted industry practice and offers a valid criterion for assessing
      lateral load capacity. The analysis, conducted in May 2012, confirmed that, even when the
      pier experiences its maximum lateral load, the most load any one batter pile would experience


Appendix. Agency Comments
                                                                                                    42


       is much less than it is designed to support. In order to provide further confirmation, the
      design and analysis concepts and methods were reviewed by bridge experts in the FHWA.
      The FHWA bridge experts concurred with the approach used in the analysis and the FB-
      MultiPier computer program used in the computer modeling.

      Recommendation 2: Develop and implement a plan, with milestones, to ensure that the
      Metropolitan Washington Airports Authority carries out appropriate stray current tests to
      calculate the piles’ corrosion rate and estimate their remaining years of service.

      FTA Response: Concur. In guidance provided to all recipients of Federal transit funds, FTA
      requires that railroad structures meet at least a 50-year service life. While MWAA’s
      contractor did conduct corrosion testing, FTA agrees that there is benefit to additional
      corrosion testing in order to provide further assurance that the expected service life will be
      met. Moreover, FTA agrees that it would be constructive to establish thresholds for
      maximum acceptable metal loss resulting from the effect of stray electric current. As a result,
      FTA is requiring MWAA to implement a state-of-the-art testing plan that will make it
      possible to (1) estimate the degree of metal loss to date due to corrosion at various depths
      among the piles, (2) develop criteria for the amount of metal loss that is acceptable to achieve
      a 50-year life for the foundations and (3) identify any applicable corrosion protection
      measures that emerge from the stray current tests. This plan was designed by an independent
      leading corrosion expert and will be directly observed by the full-time on-site PMOC along
      with MWAA’s inspection contractor. The appropriate thresholds for metal loss and the use of
      test results to identify any applicable corrosion protection measures will be completed by
      August 31, 2013 when the track is transferred to WMATA.

      Recommendation 3: Develop and implement a plan, with milestones, to ensure that the
      Metropolitan Washington Airports Authority installs any applicable corrosion protection
      measures that emerge from the stray current tests before the Washington Metropolitan Area
      Transit Authority accepts the final Dulles phase 1 project.

      FTA Response: Concur. FTA has already required MWAA to take necessary measures to
      protect piles from stray current based on the outcome of the testing described in response to
      recommendation 2. FTA established this as a condition that must be met before WMATA
      takes over operation of Phase 1 of the project. Once the tests described above are conducted,
      FTA will review the mitigation measures selected by MWAA and WMATA to ensure that all
      necessary and appropriate actions are taken in a timely manner. This plan will be in place by
      August 31, 2013 when the track is transferred to WMATA.

      Recommendation 4: Require the Metropolitan Washington Airports Authority to resolve
      potential schedule delays by finalizing the Washington Metropolitan Area Transit Authority’s
      Rail Fleet Management Plan to ensure that sufficient railcars will be available for the Silver
      Line, without negatively impacting Metrorail service on other lines.

      FTA Response: Concur in part. FTA is aware of the operating equipment challenges
      WMATA faces in opening and operating the new Silver Line. In May, FTA received a Rail
      Fleet Management Plan and is now reviewing it. FTA will ensure this plan is finalized and
      appropriate measures are implemented prior to determining if there is any breach of the

Appendix. Agency Comments
                                                                                                   43


      revenue service date stated in the Full Funding Grant Agreement. We will work with MWAA
      and WMATA to finalize the plan by January 31, 2013.

      It is important to recognize that the natural disaster resulting from a devastating March 2011
      earthquake and tsunami in Japan has significantly impacted the timely fulfillment of
      WMATA’s contract with Kawasaki for the procurement of rail vehicles. According to the rail
      fleet plan under review, WMATA is anticipating a five-month delay beyond the original date
      in the contract with Kawasaki. FTA continues to closely monitor the procurement schedule
      and its impact on integrating the Silver Line into the operations of the WMATA system as a
      whole.

      Recommendation 5: Require the Metropolitan Washington Airports Authority to resolve
      potential schedule risks by working with Metropolitan Washington Airports Authority and its
      contractor to make a final determination as to whether the full scope of the West Falls Church
      Yard’s expansion is accounted for and falls within Phase 1 of the Dulles project’s critical
      path; and if so, properly adjust the project schedule and cost to reflect this.

      FTA Response: Concur and completed. FTA has been closely monitoring this risk and has
      worked closely with MWAA to resolve this issue through the oversight process. FTA and its
      PMOC will monitor the implementation of a May 2012 agreement that settles the scheduling
      issue between MWAA and its contractor as the construction work in the West Falls Church
      Yard continues. The substantial completion date for this work is December 20, 2013, which
      is in advance of MWAA’s projected revenue service date of January 2014 and well in advance
      of the revenue service date of December 1, 2014 as stipulated in the Full Funding Grant
      Agreement. FTA requests that OIG close out this recommendation.

      Recommendation 6: Require the Metropolitan Washington Airports Authority to resolve
      potential funding risks by funding the $200 million for the project’s Capital Reserve Account
      (CAPRA).

      FTA Response: Concur in part and completed. FTA agrees that MWAA must have
      sufficient funding available to address contingencies that could arise during the construction
      process. Based on current estimates of potential contingent liabilities as identified in the
      PMOC monthly reports, there is a need to ensure that at least $37.7 million is available to
      address contingencies. In September 2011, MWAA identified over $71 million in finance
      cost savings. While these funds are not held in a CAPRA per se, they are available to
      replenish the contingency line item to address potential funding risks. FTA requests that OIG
      close out this recommendation.

      Recommendation 7: Finalize the Metropolitan Washington Airports Authority’s Risk and
      Contingency Management Plan to ensure mitigation plans are in place to address cost risks.

      FTA Response: Concur and completed. In April 2012, FTA approved MWAA’s final Risk
      and Contingency Management Plan. FTA and its PMOC will ensure that MWAA follows the
      plan by continuously identifying risks and will work with MWAA to ensure that appropriate
      mitigation measures are implemented if needed. We will continue to closely monitor project
      costs and schedules. FTA requests that OIG close out this recommendation.

Appendix. Agency Comments
